U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 20, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Devan Pierson v. United States of America,
S.Ct No. 19-566

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 28,
2019, and placed on the docket on October 30, 2019. The government's response is due on
November 29, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 30, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0566
PIERSON, DEVAN
USA

ZACHARY A. CIULLO
KIRKLAND & ELLIS LLP
300 N. LASALLE STREET
CHICAGO, IL 60654
ER1N E. MURPHY
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
ER1N.MURPHY@KIRKLAND.COM

